FILED: September 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7864
(7:15-cv-00599-GEC-PMS)

CREADELL HUBBARD
Petitioner - Appellant
y.

CHARLES RATLEDGE, Warden
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7864
CREADELL HUBBARD,
Petitioner - Appellant,
v.
CHARLES RATLEDGE, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. GlenE. Conrad, Senior District Judge. (7:15-cv-00599-GEC-PMS)
Submitted: August 31, 2020

Decided: September 10, 2020

Before GREGORY, Chief Judge, HARRIS, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Creadell Hubbard, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Creadell Hubbard, a federal prisoner, appeals the district court’s order denying relief
on his 28 U.S.C. § 2241 petition in which he sought to challenge his sentence by way of
the savings clause in 28 U.S.C. § 2255. Pursuant to § 2255(e), a prisoner may challenge
his sentence in a traditional writ of habeas corpus pursuant to § 2241 if a § 2255 motion
would be inadequate or ineffective to test the legality of his detention.
[Section] 2255 is inadequate and ineffective to test the legality of a sentence
when: (1) at the time of sentencing, settled law of this circuit or the Supreme
Court established the legality of the sentence; (2) subsequent to the prisoner’s
direct appeal and first § 2255 motion, the aforementioned settled substantive
law changed and was deemed to apply retroactively on collateral review;
(3) the prisoner is unable to meet the gatekeeping provisions of § 2255(h)(2)
for second or successive motions; and (4) due to this retroactive change, the
sentence now presents an error sufficiently grave to be deemed a fundamental
defect.
United States v. Wheeler, 886 F.3d 415, 429 (4th Cir. 2018).
We have reviewed the record and find no reversible error.* Accordingly, we affirm
the district court’s order. We dispense with oral argument because the facts and legal

* We conclude that the district court erred in determining that Hubbard failed to
raise his sentencing challenge in a prior 28 U.S.C. § 2255 motion. Nevertheless, we affirm
the dismissal of the petition because Hubbard failed to demonstrate that he satisfied the
savings clause requirements. See Kerr v. Marshall Univ. Board of Governors, 824
F.3d 62, 75 n.13 (4th Cir. 2016) (recognizing that this court “may affirm on any grounds
supported by the record”). Hubbard’s 327-month sentence was not illegal because the
statutory maximum term on each count of conviction could have been stacked, yielding a
maximum term far in excess of the sentence he received. See United States v. Chase, 296
F.3d 247 (4th Cir. 2002). Thus, any error was harmless.
2

contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

3

3L 0

w
riuizu

WUV o 7 2013
IN THE UNITED STATES DISTRICT COURT BY.JUL!^C' DUDLEY, CLERK
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
CREADELL HUBBARD,

)

CASE NO. 7:15CV00002

)

Petitioner,
v.

)
)
)
)

CHRISTOPHER ZYCH, WARDEN,

)
)

Respondent.
CREADELL HUBBARD,

)

)

CASE NO, 7:15CV00599

)

Petitioner,

)

)

v.

MEMORANDUM OPINION

)
)

CHARLES RATLEDGE, WARDEN,

)

)
Respondent.

By: Hon. Glen E. Conrad
Senior United States District Judge

)

Creadell Hubbard, a federal inmate at the United States Penitentiary in Lee County,
Virginia, proceeding pro se, filed these habeas corpus petitions under 28 U.S.C. § 2241. In his
first petition, Hubbard asserts that in light of United States v. Descamps. 570 U.S. 254 (2013),
his sentence is unlawful, and the court should now revisit it. In the second, he contends that his
sentence exceeded the statutory maximum and must be corrected. Upon review of the record,
the court concludes that the petitions must be summarily dismissed for lack ofjurisdiction. i
Background
A jury in the United States District Court for the Eastern District of North Carolina found
Hubbard guilty of bank robbery by use of a dangerous weapon (Count One), possession or use of

1 See Rules 1(b) & 4, Rules Governing Section 2254 Cases (authorizing dismissal of Habeas petition where
it plainly appears from face of petition that petitioner is not entitled to habeas relief). ^

a firearm during a crime of violence (Count Two), possession of stolen money (Count Three),
and conspiracy to possess stolen money (Count Four).

United States v. Hubbard, No.

5:88CR00040. On April 21, 1989, the court sentenced Hubbard to 327 months in prison on
Count One, with Counts Three and Four merged into that count; 60 months in prison on Count
Two, consecutive to the sentence on the other counts; and three years of supervised release.2 His
appeal was unsuccessful. United States v. Hubbard. 919 F.2d 734 (4th Cir. 1990), cert, denied,
499 U.S. 969 (1991). Hubbard also filed a motion to vacate, set aside or correct the sentence
under 28 U.S.C. § 2255 that was denied. United States v. Hubbard, Nos. CR-88-40; CA-97-320BO (E.D.N.C. Aug. 3, 1999), appeal dism’d. United States v. Hubbard. 210 F.3d 363 (4th Cir.
2000) (unpublished). In July 2014, the United States Court of Appeals for the Fourth Circuit
denied his motion under 28 U.S.C. § 2244(b)(3)(A) to file a second or successive § 2255 motion,
raising his current claim under Descamns.
In the first of these § 2241 petitions, Hubbard asserts that the district court erred in
finding him eligible for an enhanced sentence under the Career Offender provision of the United
States Sentencing Guidelines, based on his prior convictions. Specifically, Hubbard asserts that,
in light of the holding in Descamps.3 his 1976 conviction for third-degree burglary under
Kentucky law no longer qualifies as a crime of violence, to make it a prior predicate felony for a
Career Offender enhancement. In February of 2015, the Court summarily dismissed the case,
holding that Hubbard had not met the standard under In re Jones, 226 F.3d 328 (4th Cir. 2000)
and § 2255(e) to show that he could challenge his sentence in a § 2241 petition.
2 See Order, ECF No. 28 (attached copy of Judgment).
3 In Descamps, the Supreme Court of the United States held that a sentencing court may not look beyond
the text of an indivisible statute, which is a statute that does not set out one or more elements of the offense in the
alternative, and review certain documents when determining if a defendant is an Armed Career Criminal under 18
U.S.C. § 924(e). 133 S. Ct. at 2281-82.
7
2

In the second § 2241 petition, No. 7:15CV00599, Hubbard claims that the court erred in
sentencing him to 327 months in prison, when the maximum sentence allowed under 18 U.S.C.
§ 2113(d) was 300 months (25 years). Again, the court summarily dismissed the case, holding
that Hubbard had not made the required showings under In re Jone. and § 2255(e) to proceed
under § 2241.
Hubbard appealed the dismissals of both cases.4 The court of appeals found that his
claims should be considered under its recent decisions in United States v. Wheeler. 886 F.3d
415, 426 (4th Cir. 2018), and Lester v. Flournoy. 909 F.3d 708 (4th Cir. 2018), and remanded the
cases “for further consideration of the petition[s], including any relevant jurisdictional issues.”
Hubbard v. Zvch, 747 F. App’x 186 (4th Cir. 2019); Hubbard v. Ratledge, 747 F. App’x 187 (4th
Cir. 2019). This court stayed consideration of the petitions until the United States Supreme
Court denied the United States’ petition for a writ of certiorari in Wheeler. Thereafter, the
United States filed motions to dismiss the petitions as moot. Hubbard has responded, making the
motions ripe for consideration.
When Hubbard filed his § 2241 petitions and for some time thereafter, he was confined at
the United States Penitentiary in Lee County, Virginia (“USP Lee”). On March 23, 2018, he
completed his federal prison terms and was placed on supervised release in the Eastern District
of North Carolina. A month later, his supervision was transferred to the Southern District of
Indiana.

4 While these cases were on appeal, Hubbard sought and obtained court of appeals certification to file a
successive § 2255 motion in the Eastern District of North Carolina. In re Hubbard. 825 F.3d 225, 227 (4th Cir.
2016). In this §2255 motion, he argued that his mandatory Sentencing Guidelines career offender sentence is
unconstitutional under the rule announced in Johnson v. United States. 135 S. Ct. 2551 (2015). The district court
dismissed the petition in August of 2019 as untimely filed in light of United States v. Brown. 868 F.3d 297 (4th Cir.
2017) (holding that a Johnson challenge to a sentence imposed under the then-mandatory Sentencing Guidelines is
untimely, in light of Beckles v. United States. 137 S. Ct. 886 (2017)).

3

Discussion
Section 2241(c) authorizes this court to grant habeas relief to a prisoner who is both “in
custody under or by color of the authority of the United States” and “in custody in violation of
the Constitution or laws or treaties of the United States.” A former federal prisoner, like
Hubbard, who is serving a term of supervised release, qualifies as being “in custody” for
purposes of seeking habeas relief. See United States v. Present, 190 F.3d 279, 283 (4th Cir.
1999).
The United States Constitution limits the jurisdiction of federal courts to actual, ongoing
cases or controversies. U. S. Const., art. Ill, § 2; Honig v. Doe. 484 U.S. 305* 317 (1988).
“When a case or controversy ceases to exist—either due to a change in the facts or the law—the
litigation is moot, and the court’s subject matter jurisdiction ceases to exist also.” Porter v.
Clarke. 852 F.3d 358, 363 (4th Cir. 2017).5 In a habeas corpus case, “[n]o case or controversy
exists unless the petitioner has suffered an actual injury that can be redressed by a favorable
judicial decision.” Spencer v, Kemna. 523 U.S. 1, 7 (1998). If the § 2241 petitioner has served
his prison term and his supervised release term, no live controversy exists that the court could
resolve by addressing his challenge to the legality ofhisjaiminal sentence, and the § 2241 claim
is moot. See United States v. Hardy. 545 F.3d 280,283-84 (4th Cir. 2008).
^^'Tn response to the motions to dismiss, Hubbard contends that his sentence challenges are
not moot. He asserts that if his sentence was held invalid, the court could choose to reduce his
term of supervised release. See, e.g.. Pone v. Perdue. 889 F.3d 410, 414 (7th Cir. 2018) (“When
a former inmate still serving a term of supervised release challenges the length or computation of
his sentence, his case is not moot so long as he could obtain any potential benefit fiom a

5 The court has omitted internal quotation marks, alterations, and citations here and throughout this
opinion, unless otherwise noted.

4

favorable decision.”)- The United States has not demonstratedJhatJHubbard could not benefit
from a favorable_dgci§iorL-onJhis_j_2241 claim, and the court cannot so find. See. e.g„ United
States v. Johnson. 529 U.S. 53, 59-60 (2000) (holding that although finding inmate spent too
much time in prison would not automatically entitle him to less supervised release or modified
conditions of release, it would carry “equitable considerations of great weight” in a motion to
reduce his term of supervised release under 28 U.S.C. § 3583). The availability of a potential
benefit from a decision on the § 2241 claim is sufficient to prevent that claim from being moot.
Pope. 889 F.3d at 414; see also United States v. Epps. 707 F.3d 337, 345 (D.C. Cir. 2013);
Muiahid v. Daniels. 413 F.3d 991, 994-95 (9th Cir. 2005). For the stated reasons, the court will
deny the motions to dismiss the § 2241 petitions as moot,
The United States also argues that in the event the court concludes that the § 2241 claims
are not moot, the cases should be transferred to the United States District Court for the Southern
District of Indiana, where Hubbard is serving his supervised release. See 28 U.S.C. § 2241(a)
(providing that writ of habeas corpus “shall be entered in the records of the district court of the
district wherein the restraint complained of is had”). It is well established, however, that because
Hubbard was confined at USP Lee, within the jurisdiction of this court, when he filed this § 2241
petitions, this court “retains jurisdiction” to address his claims. Rumsfeld v. Padilla. 542 U.S.
426,441 (2004). Accordingly, the court will deny the United States’ motions.
Although the United States did not move for dismissal of Hubbard’s § 2241 petitions on
any substantive ground, the court finds that summary dismissal for lack of jurisdiction is
warranted. A prisoner generally must file a motion under § 2255 to collaterally attack the
legality of his detention under a federal conviction or sentence. 28 U.S.C. § 2255(a); Davis v.
United States. 417 U.S. 333, 343 (1974). A district court cannot entertain a habeas corpus

5

petition under § 2241 challenging a federal court judgment unless a motion pursuant to 28 U.S.C.
§ 2255 is “inadequate or ineffective to test the legality of [that inmate’s] detention.” 28 U.S.C.
§ 2255(e) (“the savings clause”); Wheeler. 886 F.3d at 423. “[T]he remedy afforded by § 2255
is not rendered inadequate or ineffective merely because an individual has been unable to obtain
relief under that provision* or because an individual is procedurally barred from filing a § 2255'
motion.” In re Vial. 115 F.3d 1192,1194 n.5 (4th Cir. 1997). In this circuit, a § 2255 motion is
inadequate and ineffective to test the legality of a sentence when:
(1) at the time of sentencing, settled law of this circuit or the Supreme Court
established the legality of the sentence; (2) subsequent to the prisoner’s direct
appeal and first § 2255 motion, the aforementioned settled substantive law
changed and was deemed to apply retroactively on collateral review; (3) the
prisoner is unable to meet the gatekeeping provisions of § 2255(h)(2) for second
. or successive motions; and (4) due to this retroactive change, the sentence now
presents an error sufficiently grave to be deemed a fundamental defect.
Wheeler. 886 F.3d at 429. These “savings clause requirements are jurisdictional.” Id. at 426.
In No. 7:15CV00002, Hubbard asserts that he is entitled to have his sentence revisited
under this Wheeler standard because of the United States Supreme Court’s 2013 decision in
Descamps that occurred several years after Hubbard’s appeal and initial § 2255 proceedings.
However,
Descamps and [the related decision in] Mathis did not announce a retroactively
applicable substantive change in the law. Rather, these cases reiterated and
clarified the application of the categorical approach or the modified categorical
approach, to determine whether prior convictions qualify as predicates for
recidivist enhancements. See Mathis. 136 S. Ct. at 2257 (“Our precedents make
this a straightforward case.”); Descamps. 570 U.S. at 260, 133 S. Ct. 2276 (noting
that Court’s prior case law explaining categorical approach “all but resolves this
case”); United States v. Roval. 731 F.3d 333, 340 (4th Cir. 2013) (“In Descamps,
the Supreme Court recently clarified whe[n] courts may apply the modified
categorical approach”).
Brooks v. Bragg. 735 F. App’x 108, 109 (4th Cir. 2018) (unpublished). Because Hubbard’s
§ 2241 petition does not rely on a retroactively applicable change in substantive law subsequent
6

to his direct appeal and first § 2255 motion, he cannot satisfy the requirements of Wheeler to
bring his petition under the savings clause in § 2255(e). Accordingly, the court is without
jurisdiction to address his claim under § 2241 and will summarily dismiss his petition.6
In No. 7:15CV00599, Hubbard asserts that his 327-month prison sentence for bank
robbery exceeds the maximum sentence authorized under 18 U.S.C. § 2113(d). Based on the
dismissal of his prior § 2255 motion, he asserts that the remedy iri § 2255 is not available to him
and he may pursue his illegal sentence claim under § 2241. He is mistaken. He could have
raised his sentence challenge on direct appeal or in his § 2255 motions, but he failed to do so.
Because Hubbard has not satisfied the requirements of Wheeler to bring his petition under the
savings clause in § 2255(e), the court is without jurisdiction to address his claim under § 2241.
Therefore, the court will summarily dismiss his petition. An appropriate order will enter this
day.
The Clerk is directed to send copies of this memorandum opinion and accompanying
order to the parties.
ENTER: This 0

day of November, 2019.
Senior United States District Judge

6 Under Rule 4 of the Rules Governing Section 2254 Cases, which may be applied to § 2241 cases under
Rule 1(b), if it appears from the face of a § 2241 petition and any attached exhibits that the petitioner is not entitled
to relief in the district court, the court must dismiss the petition.

7

